                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 112100063                                                                     Page 1 ofl



         This I Case was opened on a company1 from a proactive review of SBIR/STTR companies that
         may not have adequate facilities. The company provided information showing they had their
         described facilities, the funds had been spent as laid out in the proposal, and the supporting
         investments were legitimately received. The investigative reviews of the Phase I and IB awards 2
         to this company do not warrant further investigation.

         As a result, this I Case is closed.




         ~---
NSF OIG Form 2 (11/02)
